                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                    MEMORANDUM OF INVESTIGATION

 Case Number: 109030011                                                                   Page 1 of 1



         The Office of Inspector General received an allegation 1 that a university's2 Chemistry Research
         and Laboratory Supplier (CRLS) charged excessive prices for chemistry items. It was alleged
         that since CRLS' prices were high, the university overcharged NSF for CRLS items used in
         grants.

         We confirmed several university grants 3 incurred expenses for chemistry items purchased from
         the CRLS. We reviewed CRLS vendor information and pricing strategy. We found no evidence
         of illegalities. We did not find significant evidence that CRLS routinely charged excessive
         prices for chemistry items. As such, this investigation is closed




                                     Investigator                                      Date

    Sign / date                                                    October 13,2010

NSF OlG Fonn 4 (11/02)
